          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Site Visit Report




        American Recovery and
        Reinvestment Act Site Visit of the
        Wastewater Treatment
        Facility Expansion,
        Town of Buckeye, Arizona
        Report No. 11-R-0222

        May 9, 2011
Report Contributors:                               John Burns
                                                   Eileen Collins
                                                   Gary Smith
                                                   Michael Owen




Abbreviations

OMB           Office of Management and Budget
WIFA          Water Infrastructure Finance Authority of Arizona


Cover photo: Wastewater treatment facility expansion under construction at the
             Town of Buckeye, Arizona. (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                             11-R-0222
                                                                                                         May 9, 2011
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review 	          American Recovery and Reinvestment Act
The U.S. Environmental
                                  Site Visit of the Wastewater Treatment Facility
Protection Agency, Office of      Expansion, Town of Buckeye, Arizona
Inspector General, conducts
site visits of American            What We Found
Recovery and Reinvestment
Act of 2009 (Recovery Act)        We conducted an unannounced site visit of the wastewater treatment facility
clean water and drinking water    expansion in the Town of Buckeye, Arizona, in October 2010. As part of our site
projects. We selected the         visit, we toured the project, interviewed town representatives and contractor
Town of Buckeye, Arizona,         personnel, and reviewed documentation related to Recovery Act requirements. We
for review.                       did not identify any compliance issues with Buy American, wage rate, contract
                                  procurement, or funding requirements. However, we found that the town was not
Background                        in compliance with reporting requirements for jobs created or retained for the
                                  9-month period ended September 30, 2010. The town used incorrect and/or
The town is constructing a        incomplete work-hour data to calculate jobs created or retained for quarterly
1.5-million-gallon-per-day        reports covering the 6-month period ended June 30, 2010, and did not submit the
expansion of its wastewater       report for the quarter ended September 30, 2010.
treatment facility. The project
is funded by a $12,000,000         What We Recommend
Clean Water State Revolving
Fund loan from the Water          We recommend that the Region 9 Regional Administrator require the Water
Infrastructure Finance            Infrastructure Finance Authority of Arizona to direct the town to obtain, to the
Authority of Arizona. The         maximum extent possible, complete information on jobs created or retained with
loan included $6,372,285 in       Recovery Act funding for the primary contractor and subcontractors; direct the
Recovery Act funds.               town to correct the number of jobs created or retained for the quarterly reports;
                                  obtain the corrections for the reported number of jobs; maintain the corrected
                                  documentation in administrative records; and submit corrections to the federal
                                  government.

                                  Region 9, the Water Infrastructure Finance Authority of Arizona, and the town
                                  agreed with the recommendations.
For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110509-11-R-0222.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                            THE INSPECTOR GENERAL




                                           May 9, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Visit of the
          Wastewater Treatment Facility Expansion, Town of Buckeye, Arizona
          11-R-0222


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Jared Blumenfeld
               Regional Administrator, Region 9


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. The report summarizes the results of our site visit of the
Wastewater Treatment Facility Expansion Project in the Town of Buckeye, Arizona.

We performed this site visit as part of our responsibility under the American Recovery and
Reinvestment Act of 2009 (Recovery Act). The purpose of our site visit was to determine
whether the town is in compliance with selected requirements of the Recovery Act pertaining to
the Clean Water State Revolving Fund Program. The town received $12,000,000 through a Clean
Water State Revolving Fund loan for the project. The loan included $6,372,285 in Recovery Act
funds.

The estimated direct labor and travel costs for this report are $129,368.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days, or on August 8, 2011. You should include a corrective action
plan for agreed-upon actions, including milestone dates. Your response will be posted on the
Office of Inspector General’s public website, along with our memorandum commenting on your
response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The
final response should not contain data that you do not want to be released to the public; if your
response contains such data, you should identify the data for redaction or removal. We have no
objection to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Robert
Adachi, Director of Forensic Audits, at (415) 945-4537 or adachi.robert@epa.gov.
American Recovery and Reinvestment Act Site Visit of the                                                                     11-R-0222
Wastewater Treatment Facility Expansion, Town of Buckeye, Arizona


                                      Table of Contents 

   Purpose........................................................................................................................   1    


   Background .................................................................................................................      1


   Scope and Methodology.............................................................................................                1


   Results of Site Visit.....................................................................................................        1


                   Buy American Requirements .......................................................................                 2        

                   Wage Rate Requirements ...........................................................................                2        

                   Contract Procurement Requirements ..........................................................                      2        

                   Funding Requirements ................................................................................             2        

                   Reporting Requirements .............................................................................              2        


   Recommendations ......................................................................................................            3


   Agency, Recipient, and Subrecipient Responses to Draft Report .........................                                           4


   OIG Comment on Responses ....................................................................................                     4


   Status of Recommendations and Potential Monetary Benefits..............................                                           5




Appendix
   A       Distribution .........................................................................................................    6

Purpose
            The purpose of our unannounced site visit was to determine whether the Town of
            Buckeye, Arizona, complied with selected requirements of the American
            Recovery and Reinvestment Act of 2009 (Recovery Act) that pertain to the Clean
            Water State Revolving Fund Program.

Background
            The town is constructing a 1.5-million-gallon-per-day expansion to its wastewater
            treatment facility. The project is funded by a Clean Water State Revolving Fund
            Program loan of $12,000,000 from the Water Infrastructure Finance Authority of
            Arizona (WIFA). The loan included $6,372,285 in Recovery Act funds.

Scope and Methodology
            Due to the time-critical nature of Recovery Act requirements, we did not perform
            this assignment in accordance with generally accepted government auditing
            standards. Specifically, we did not perform certain steps that would allow us to
            obtain information to assess the town’s internal controls and previously reported
            audit concerns. As a result, we do not express an opinion about the adequacy of
            the town’s internal controls or the town’s compliance with all federal, state, or
            local requirements.

            We conducted an unannounced site visit of the wastewater treatment facility
            project during October 4–6, 2010. During our site visit, we limited the scope of
            our review to the following steps:

               1.	 Toured the project
               2.	 Conducted interviews of town, contractor, and subcontractor personnel
               3.	 Reviewed records maintained or provided by the town, its primary
                   contractor for the project, and the State of Arizona to assess compliance
                   with:
                      a.	 Buy American requirements under Section 1605 of the Recovery
                          Act
                      b.	 Wage rate requirements under Section 1606 of the Recovery Act
                      c.	 Contract procurement requirements
                      d.	 Funding requirements under Section 1604 of the Recovery Act
                      e.	 Reporting requirements under Section 1512 of the Recovery Act

Results of Site Visit
            Our site visit did not identify any compliance issues with Buy American, wage
            rate, contract procurement, or funding requirements. However, we found that the
            town’s reporting for jobs created or retained was not accurate. The results of our
            site visit are summarized below.


11-R-0222                                                                                      1
            Buy American Requirements

            We did not identify any compliance problems related to Buy American
            requirements. We obtained an understanding of the procedure used for ensuring
            that the material for the project complies with Buy American requirements. We
            also reviewed Buy American certifications and other relevant documentation for
            higher-cost manufactured items used on the project. The documentation indicated
            that these materials met the requirements.

            Wage Rate Requirements

            We did not identify any compliance problems related to wage rate requirements.
            We compared the wage rate requirements for each employee of the primary
            construction contractor and its subcontractors with each employee’s wages as
            reported on the certified payrolls for the pay periods ending August 14, 2010, and
            October 9, 2010. The review showed that the employees’ wages complied with
            the wage requirements.

            Contract Procurement Requirements

            We did not identify any compliance problems related to the contract procurement
            process. The town awarded an $11.5-million design and construction contract for
            the project. Arizona Revised Statute Title 34-603 establishes the procurement
            requirements for design and construction services contracts. Under Arizona
            Revised Statute Title 34-603, a design and construction services contract may be
            awarded to the highest-qualified contractor at a negotiated price. We found that
            the town awarded the construction contract at a negotiated price to the most
            qualified contractor.

            Funding Requirements

            We did not identify any compliance problems with funding limitations of the
            Recovery Act. We reviewed the town’s loan documentation and inspected the
            project to ensure that the town complied with Section 1604 of the Recovery Act,
            which states that no Recovery Act funds can be used for any casino, other
            gambling establishment, aquarium, zoo, golf course, or swimming pool. Our
            review and site visit identified that the town was in compliance with Section
            1604.

            Reporting Requirements

            The town was not in compliance with Recovery Act reporting requirements. The
            Recovery Act requires quarterly reporting for the number of jobs created and
            retained with Recovery Act funding. Office of Management and Budget (OMB)
            guidance on Recovery Act reporting provides instructions, criteria, and a



11-R-0222                                                                                   2
            framework for meeting the quarterly reporting requirements. The OMB guidance
            specifies that the estimated total number of jobs funded by the Recovery Act is to
            be reported by recipients. The guidance also specifies that information should be
            collected from all subrecipients and vendors, to the maximum extent possible, to
            generate the most comprehensive and complete job impact numbers available.

            We found that, in its computation of the number of jobs created or retained for
            quarterly reports covering the 6-month period ending June 30, 2010, the town did
            not include work-hour data for (1) primary construction contractor employees not
            subject to wage rate requirements, and (2) subcontractor employees. For the
            report covering the quarter ending June 30, 2010, the town also incorrectly used
            work-hour data for the months of March through May 2010 rather than data for
            April through June 2010. We also found that the town did not submit the report
            for the quarter ending September 30, 2010. As a result, the number of jobs created
            or retained reported by the town for the 9-month period covering January 1
            through September 30, 2010, was based on incorrect and incomplete data, and
            was understated. We were unable to quantify the number of jobs underreported
            because the town did not obtain complete contractor and subcontractor work-hour
            information.

            These reporting issues indicate that town staff involved in preparing the quarterly
            reports were not fully knowledgeable of the Recovery Act reporting requirements
            and/or did not ensure that the quarterly reports were prepared based on correct
            and complete contractor and subcontractor work-hour data. We were unable to
            confirm the cause or causes for the reporting issues because of the turnover of
            town staff involved in the reporting process.

            OMB’s Recovery Act guidance requires that recipients of Recovery Act funds
            maintain in their administrative files corrections of erroneous and missing data
            submitted in prior quarterly reports. The guidance also requires recipients to
            submit the corrections to the federal government at a time to be specified.

Recommendations
            We recommend that the EPA Regional Administrator, Region 9, require WIFA
            to:

                   1.	 Direct the Town of Buckeye to obtain, to the maximum extent
                       possible, complete information on jobs created or retained with
                       Recovery Act funding for the primary contractor and subcontractors.

                   2.	 Direct the Town of Buckeye to correct the number of jobs created or
                       retained for quarterly reports covering the period January 1 through
                       September 30, 2010, and all subsequent periods with job reporting
                       errors.




11-R-0222                                                                                      3
                   3.	 Obtain the corrections referenced in recommendation 2 from the Town
                       of Buckeye and maintain the corrected documentation in
                       administrative records.

                   4.	 Submit the corrections referenced in recommendation 2 for the Town
                       of Buckeye to the federal government after a schedule has been
                       established by future Recovery Act guidance.

Agency, Recipient, and Subrecipient Responses to Draft Report
            We issued a discussion draft to EPA Region 9, the Town of Buckeye, and WIFA
            on April 11, 2011. Formal written comments were not requested. We held an exit
            conference on April 21, 2011, with the region, WIFA, and town to obtain their
            response to the discussion draft.

             The town agreed with the findings in the discussion draft. The region and WIFA
            did not agree or disagree with the findings because they did not conduct the audit.
            However, the region said it had no reason to question the report, and WIFA
            commented that it did not have concerns with the discussion draft.

            The region, WIFA, and town agreed with the recommendations. The town also
            said that it submitted corrected reports for jobs created or retained to WIFA on
            April 12, 2011. WIFA confirmed that it had received the corrected reports and
            said the reports were under review.

OIG Comment on Responses
            The region will need to include a corrective action plan for the recommendations,
            including milestone dates, in its written response to this report.




11-R-0222                                                                                      4
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                         POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                             Planned
    Rec.    Page                                                                                            Completion   Claimed    Agreed-To
    No.      No.                          Subject                        Status1      Action Official          Date      Amount      Amount

     1        3     Require WIFA to direct the Town of Buckeye to           O            Region 9
                    obtain, to the maximum extent possible, complete               Regional Administrator
                    information on jobs created or retained with
                    Recovery Act funding for the primary contractor
                    and subcontractors.

     2        3     Require WIFA to direct the Town of Buckeye to           O            Region 9
                    correct the number of jobs created or retained for             Regional Administrator
                    quarterly reports covering the period January 1
                    through September 30, 2010, and all subsequent
                    periods with job reporting errors.

     3        4     Require WIFA to obtain the corrections referenced       O            Region 9
                    in recommendation 2 from the Town of Buckeye                   Regional Administrator
                    and maintain the corrected documentation in its
                    administrative records.

     4        4     Require WIFA to submit the corrections referenced       O            Region 9
                    in recommendation 2 for the Town of Buckeye to                 Regional Administrator
                    the federal government after a schedule has been
                    established by future Recovery Act guidance.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-R-0222                                                                                                                                  5
                                                                            Appendix A

                                    Distribution
Office of the Administrator
Regional Administrator, Region 9
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Audit Followup Coordinator, Region 9
Public Affairs Officer, Region 9
Director, EPA Region 9, Water Division
Interim Director, Water Infrastructure Finance Authority of Arizona
Town Manager, Town of Buckeye, Arizona
Water Resources Director, Town of Buckeye, Arizona




11-R-0222                                                                           6
